                                                     NATIONAL SCIENCE FOUNDATION.
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: 1-10030009                                                                    Page 1 of 1




                We received a complaint from an anonymous source claiming that a universityl
         researcher2 had mischarged NSF grant funds, including charging salary for his Post Doctorate
         Fellow, to a grant awarded to another researcher?

                 In response to the allegations, we requested and received from the university account
         summaries and detailed salary reports for two NSF Grants,4 which were related research projects.
         Review of final reports, account and payroll summaries for these grants did not substantiate the.
         allegation.

                   This case is closed with no further action taken.




         2




NSF OIG Form 2 (11/02)
